 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL

 CALIFORNIA CLAIMED MEDICAID
   REIMBURSEMENT FOR SOME
    NONEMERGENCY MEDICAL
  TRANSPORTATION SERVICES IN
     LOS ANGELES COUNTY
   THAT DID NOT COMPLY WITH
FEDERAL AND STATE REQUIREMENTS
   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Lori A. Ahlstrand
                                                Regional Inspector General
                                                    for Audit Services

                                                         June 2014
                                                       A-09-12-02083
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 California claimed at least $265,000 in Federal Medicaid reimbursement over a 1-year
 period for nonemergency medical transportation services in Los Angeles County that did
 not comply with Federal and State requirements. In addition, transportation providers did
 not always maintain documentation for drivers and vehicles associated with these
 transportation services in compliance with State requirements.

WHY WE DID THIS REVIEW

The Medicaid program pays for nonemergency medical transportation (NEMT) services that a
State determines to be necessary for beneficiaries to obtain medical care. Because the Office of
Inspector General (OIG) has consistently identified this area as vulnerable to fraud, waste, and
abuse, OIG has conducted audits in multiple States since 2006. In California, we selected
Los Angeles County for review because claims for NEMT services paid to transportation
providers in this county represented 46 percent of all claims for these services statewide from
July 1, 2010, through June 30, 2011.

Our objectives were to determine whether (1) the California Department of Health Care Services
(State agency) claimed Federal Medicaid reimbursement for NEMT services in Los Angeles
County that complied with Federal and State requirements and (2) transportation providers
maintained documentation for drivers and vehicles associated with NEMT services in
compliance with State requirements.

BACKGROUND

Federal law states that providers must keep records that fully disclose the extent of services
provided to Medicaid beneficiaries receiving assistance under a State plan.

In California, NEMT is defined as transportation by ambulance, litter van, and wheelchair van of
beneficiaries whose medical conditions require transportation services but not emergency
services or equipment during transport. According to California regulations, the State agency
pays transportation providers for NEMT services if transportation is required for beneficiaries to
obtain needed medical care. For these services to be eligible for payment, providers must
maintain retrievable records to fully disclose the type and extent of the services provided and
identify the vehicles used. Furthermore, providers must ensure that their drivers comply with
State requirements for operating the vehicles used to provide the services to beneficiaries.

HOW WE CONDUCTED THIS REVIEW

We limited our review to Medicaid fee-for-service claims paid to transportation providers in
Los Angeles County for NEMT services from July 1, 2010, through June 30, 2011, that required
prior authorization. From a total of approximately $49 million ($29 million Federal share) that
the State agency claimed for Federal reimbursement, we reviewed a random sample of
100 beneficiary-services. A beneficiary-service represented all paid claims for NEMT services
provided to one beneficiary on the same beginning and ending dates of service.


Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)       i
WHAT WE FOUND

The State agency claimed Federal Medicaid reimbursement for some NEMT services in
Los Angeles County that did not comply with Federal and State requirements. Of the
100 sampled beneficiary-services, 90 complied with Federal and State requirements. For three
beneficiary-services, we were unable to contact the transportation providers and determine
compliance. Seven sampled beneficiary-services did not comply with requirements:

    •   For two beneficiary-services, the State agency paid for NEMT services on dates when the
        beneficiaries did not obtain needed medical care.

    •   For five beneficiary-services, the State agency paid for NEMT services that were not
        supported by sufficient documentation.

These deficiencies occurred because the transportation providers did not always follow Federal
and State requirements for billing NEMT services. Using our sample results, we estimated that
the State agency claimed Federal reimbursement of at least $265,680 for NEMT services in
Los Angeles County that did not comply with Federal and State requirements.

In addition, for 22 beneficiary-services, transportation providers did not maintain documentation
for drivers and vehicles associated with NEMT services in compliance with State requirements.
Specifically, for 16 beneficiary-services, transportation providers did not have records to show
that their drivers complied with State requirements for operating the vehicles used. For six
beneficiary-services, the transportation providers’ records did not identify the vehicles used to
provide the services, as required by the State. Because these deficiencies were not related to
State requirements for reimbursement, we did not include them in our estimate of unallowable
Federal reimbursement. However, it is important for the State agency to educate providers to
ensure that their drivers comply with State requirements for operating vehicles used to provide
NEMT services to beneficiaries and that adequate vehicle documentation is maintained.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $265,680 to the Federal Government,

    •   educate transportation providers to ensure that they follow Federal and State
        requirements for billing NEMT services, and

    •   educate transportation providers to ensure that they follow State requirements for
        maintaining documentation for drivers and vehicles associated with NEMT services.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with all of our
recommendations.


Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)      ii
                                                     TABLE OF CONTENTS

INTRODUCTION .............................................................................................................................1

           Why We Did This Review .....................................................................................................1

           Objectives ..............................................................................................................................1

           Background ............................................................................................................................1
                 The Medicaid Program: Administration and Federal Reimbursement .....................1
                 Medicaid Coverage of Nonemergency Medical Transportation Services .................1
                 California’s Medicaid Program..................................................................................2
                 Nonemergency Medical Transportation Services in California.................................2

           How We Conducted This Review..........................................................................................3

FINDINGS .........................................................................................................................................3

           State Agency Paid for Some Nonemergency Medical Transportation Services
             That Did Not Comply With Federal and State Requirements ............................................4
                  Services Were Provided on Dates That Beneficiaries Did Not Obtain
                    Medical Care ...........................................................................................................4
                  Transportation Provider Documentation Did Not Support
                    Services Provided....................................................................................................4

           Transportation Providers Did Not Always Maintain Documentation for Drivers and
            Vehicles Associated With Nonemergency Medical Transportation Services ....................5
                 Transportation Providers Did Not Maintain Driver Qualification Records...............5
                 Transportation Providers’ Records Did Not Include Vehicle
                    Identification Codes ................................................................................................6

RECOMMENDATIONS ...................................................................................................................6

STATE AGENCY COMMENTS ......................................................................................................6

APPENDIXES

           A: Related Office of Inspector General Reports ...................................................................7

           B: Audit Scope and Methodology.........................................................................................8

           C: Statistical Sampling Methodology ...................................................................................11

           D: Sample Results and Estimates .........................................................................................13




Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)                                                   iii
        E: Federal and State Requirements for Nonemergency Medical Transportation
            Services and Providers ...................................................................................................14

        F: State Agency Comments ..................................................................................................17




Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)                                     iv
                                               INTRODUCTION

WHY WE DID THIS REVIEW

The Medicaid program pays for nonemergency medical transportation (NEMT) services that a
State determines to be necessary for beneficiaries to obtain medical care. Because the Office of
Inspector General (OIG) has consistently identified this area as vulnerable to fraud, waste, and
abuse, OIG has conducted audits in multiple States since 2006. In California, we selected
Los Angeles County for review because claims for NEMT services paid to transportation
providers in this county represented 46 percent of all claims for these services statewide from
July 1, 2010, through June 30, 2011. 1 Appendix A lists related OIG reports on Medicaid NEMT
services.

OBJECTIVES

Our objectives were to determine whether (1) the California Department of Health Care Services
(State agency) claimed Federal Medicaid reimbursement for NEMT services in Los Angeles
County that complied with Federal and State requirements and (2) transportation providers
maintained documentation for drivers and vehicles associated with NEMT services in
compliance with State requirements.

BACKGROUND

The Medicaid Program: Administration and Federal Reimbursement

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

The Federal Government pays its share of a State’s medical assistance expenditures under
Medicaid based on the Federal medical assistance percentage (FMAP), which varies depending
on the State’s relative per capita income. During our audit period, the FMAP in California
ranged from 56.88 to 61.59 percent.

Medicaid Coverage of Nonemergency Medical Transportation Services

Federal regulations require States to ensure necessary transportation for Medicaid beneficiaries
to and from medical care providers (42 CFR § 431.53). Federal regulations define transportation
as expenses for transportation and other related travel expenses determined to be necessary by


1
 We plan to issue separate reports on the results of our reviews of (1) NEMT services in the rest of the State and
(2) NEMT services in Los Angeles County that did not require prior authorization.



Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)                       1
the State agency to secure medical examinations and treatment for a beneficiary (42 CFR
§ 440.170(a)(1)).

Federal regulations require each State to describe in its State plan the methods that the State will
use to meet the requirement to ensure necessary transportation for Medicaid beneficiaries
(42 CFR § 431.53(b)). In addition, a State plan must require that providers of services keep
records to fully disclose the extent of services provided to Medicaid beneficiaries (Social
Security Act (the Act), § 1902(a)(27)). A State may choose to claim transportation costs as
either administrative or medical assistance expenditures under its State plan (CMS State
Medicaid Director Letter, March 31, 2006).

California’s Medicaid Program

In California, the State agency administers the Medicaid program. The State agency reports
expenditures related to fee-for-service claims on Form CMS-64, Quarterly Medicaid Statement
of Expenditures for the Medical Assistance Program (CMS-64), for Federal reimbursement. For
reporting purposes, California treats NEMT services as medical assistance expenditures.

Nonemergency Medical Transportation Services in California

In California, NEMT is defined as transportation by ambulance, litter van, 2 and wheelchair van
of beneficiaries whose medical conditions require medical transportation services but not
emergency services or equipment during transport (22 CCR § 51151.7). These transportation
services allow Medicaid beneficiaries to obtain needed medical care.

Authorization and Delivery of Nonemergency Medical Transportation Services

NEMT services necessary to obtain services under Medicaid generally require a physician’s,
dentist’s, or podiatrist’s prescription and prior authorization (22 CCR § 51323(b)(2)). 3
Transportation providers obtain prior authorization by submitting a treatment authorization
request (TAR) to the State agency (22 CCR § 51003(a)). The TAR contains information
necessary for the State agency to determine the medical necessity of the NEMT services. If the
TAR is approved, the transportation provider is authorized to provide approved NEMT services
to the beneficiary and receive reimbursement from the State agency for those services.




2
  A litter van is a vehicle that is modified, equipped, and used for the purpose of providing NEMT for patients with
stable medical conditions who require the use of a litter or gurney and that is not routinely equipped with the
medical equipment or personnel required for the specialized care provided in an ambulance (California Code of
Regulations (CCR), Title 22, § 51151.3).
3
 NEMT services are exempt from prior authorization when provided to a patient being transferred from an acute-
care hospital immediately following a stay as an inpatient at the acute level of care to a skilled nursing facility or an
intermediate-care facility.




Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)                              2
Payments to Transportation Providers for Nonemergency Medical Transportation Services

Transportation providers bill for NEMT services provided to Medicaid beneficiaries by
submitting claims to the State agency’s fiscal agent. The fiscal agent processes the claims, and
the transportation providers are paid according to maximum allowable rates established by the
State (22 CCR § 51527(a)(1)).

HOW WE CONDUCTED THIS REVIEW

We limited our review to Medicaid fee-for-service claims paid to medical transportation
providers in Los Angeles County for NEMT services from July 1, 2010, through June 30, 2011,
that required prior authorization. We excluded claims related to an investigation and claims for
nonemergency acute-care transfers (which we will review in a separate audit). From a total of
$49,012,884 ($29,320,210 Federal share) that the State agency claimed for NEMT services, we
reviewed a random sample of 100 beneficiary-services. A beneficiary-service represented all
paid claims for NEMT services provided to one beneficiary on the same beginning and ending
dates of service.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology, Appendix C describes our
statistical sampling methodology, and Appendix D contains our sample results and estimates.

                                               FINDINGS

The State agency claimed Federal Medicaid reimbursement for some NEMT services in
Los Angeles County that did not comply with Federal and State requirements. Of the
100 sampled beneficiary-services, 90 complied with Federal and State requirements. For three
beneficiary-services, we were unable to contact the transportation providers and determine
compliance. 4 Seven sampled beneficiary-services did not comply with requirements:

       •   For two beneficiary-services, the State agency paid for NEMT services on dates when the
           beneficiaries did not obtain needed medical care.

       •   For five beneficiary-services, the State agency paid for NEMT services that were not
           supported by sufficient documentation.

These deficiencies occurred because the transportation providers did not always follow Federal
and State requirements for billing NEMT services. Using our sample results, we estimated that

4
    We treated these services as non-errors.



Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)     3
the State agency claimed Federal reimbursement of at least $265,680 for NEMT services in
Los Angeles County that did not comply with Federal and State requirements.

In addition, for 22 beneficiary-services, transportation providers did not maintain documentation
for drivers and vehicles associated with NEMT services in compliance with State requirements.
Specifically, for 16 beneficiary-services, transportation providers did not have records to show
that their drivers complied with State requirements for operating the vehicles used. For six
beneficiary-services, the transportation providers’ records did not identify the vehicles used to
provide the services, as required by the State. Because these deficiencies were not related to
State requirements for reimbursement, we did not include them in our estimate of unallowable
Federal reimbursement. However, it is important for the State agency to educate providers to
ensure that their drivers comply with State requirements for operating vehicles used to provide
NEMT services to beneficiaries and that vehicle documentation is maintained.

See Appendix E for details on the Federal and State requirements related to NEMT services and
providers.

STATE AGENCY PAID FOR SOME NONEMERGENCY MEDICAL TRANSPORTATION
SERVICES THAT DID NOT COMPLY WITH FEDERAL AND STATE REQUIREMENTS

The State agency paid for some NEMT services that did not comply with Federal and State
requirements. Specifically, for seven beneficiary-services, the State agency paid for services
provided on dates when the beneficiaries did not obtain medical care and for services that were
not supported by sufficient documentation.

Services Were Provided on Dates That Beneficiaries Did Not Obtain Medical Care

The State agency pays for NEMT services if transportation is required for beneficiaries to obtain
needed medical care (22 CCR § 51323(a)). For two beneficiary-services, the State agency paid
for services provided on dates when the beneficiaries did not obtain needed medical care.
Although the transportation providers’ documentation showed that the beneficiaries were
transported to authorized medical care providers, the medical care providers stated that they did
not provide medical care to the beneficiaries on the dates the transportation was provided. We
disallowed the entire payments for these services.

Transportation Provider Documentation Did Not Support Services Provided

The State agency requires providers to maintain readily retrievable records to fully disclose the
type and extent of services provided to a Medicaid beneficiary (22 CCR § 51476(a)). For five
beneficiary-services, the State agency paid for NEMT services that were not supported by
sufficient transportation provider documentation:

    •   For two beneficiary-services, the State agency paid for NEMT services that the
        transportation providers improperly billed as round-trip services between the
        beneficiary’s residence and a medical facility. Specifically, for one beneficiary-service,
        the transportation provider did not have documentation to show that any transportation



Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)       4
         service was provided, and we disallowed the entire payment. For the other beneficiary-
         service, the transportation provider’s documentation showed that only a one-way service
         was provided from the beneficiary’s residence to the medical facility rather than the
         round-trip service billed. We allowed payment for a one-way service.

    •    For two beneficiary-services, the State agency paid for NEMT services that the
         transportation provider improperly billed as “night call” services. Night call services are
         provided from 7:00 p.m. to 7:00 a.m. and are reimbursed an additional amount above the
         standard service rate (22 CCR § 51527(b)(3)). The transportation provider’s
         documentation showed that the services were provided outside the night call period. We
         allowed the payments for transportation services but disallowed the additional night call
         payments.

    •    For one beneficiary-service, the State agency paid for a dry run 5 improperly billed as a
         round-trip service between the beneficiary’s residence and a medical facility. We
         allowed payment for a one-way service because the transportation provider’s
         documentation showed that the provider attempted to transport the patient.

These deficiencies occurred because the transportation providers did not always follow Federal
and State requirements for billing NEMT services. Using our sample results, we estimated that
the State agency claimed Federal reimbursement of at least $265,680 for NEMT services in
Los Angeles County that did not comply with Federal and State requirements.

TRANSPORTATION PROVIDERS DID NOT ALWAYS MAINTAIN
DOCUMENTATION FOR DRIVERS AND VEHICLES ASSOCIATED WITH
NONEMERGENCY MEDICAL TRANSPORTATION SERVICES

Transportation providers did not always maintain documentation for drivers and vehicles
associated with NEMT services. Specifically, for 22 beneficiary-services, the providers did not
maintain driver qualification and vehicle records that complied with State requirements.

Transportation Providers Did Not Maintain Driver Qualification Records

Transportation providers that use litter and wheelchair vans to provide NEMT services must
maintain records indicating that their drivers comply with State requirements to operate those
vehicles. Litter and wheelchair van drivers must possess a current California driver’s license,
first aid certification, and evidence that they passed a medical examination within the past
2 years (22 CCR §§ 51231.1(a)(1) and 51231.2(a)(1)).




5
 A dry run is when a transportation provider attempts to pick up a beneficiary, but the beneficiary is not transported.
The State agency allows transportation providers to bill a one-way service for responding to the call.



Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)                        5
For 16 beneficiary-services, NEMT services were provided by transportation providers that did
not have:

     •   medical examination records for the drivers providing 14 beneficiary-services,

     •   driver’s license records for the drivers providing 7 beneficiary-services, and

     •   first aid certification records for the drivers providing 5 beneficiary-services. 6

Transportation Providers’ Records Did Not Include Vehicle Identification Codes

Transportation providers’ records must include the provider-assigned vehicle identification codes
(22 CCR § 51476(e)(3)) identifying the vehicles used to transport Medicaid beneficiaries. For
six beneficiary-services, the transportation providers’ records did not include the required
provider-assigned vehicle identification codes.

                                          RECOMMENDATIONS

We recommend that the State agency:

    •    refund $265,680 to the Federal Government,

    •    educate transportation providers to ensure that they follow Federal and State
         requirements for billing NEMT services, and

    •    educate transportation providers to ensure that they follow State requirements for
         maintaining documentation for drivers and vehicles associated with NEMT services.

                                     STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with all of our
recommendations. The State agency’s comments are included in their entirety as Appendix F.




6
 The total exceeds 16 beneficiary-services because, for 7 beneficiary-services, the transportation providers did not
have more than one type of driver qualification record.



Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)                         6
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                      Report Title                              Report               Date Issued
                                                                Number
 Hawaii Claimed Unallowable Medicaid                         A-09-11-02047            5/22/2012
 Reimbursement for Nonemergency Medical
 Transportation Services Furnished by Taxi
 Providers
 Review of Medicaid Payments for Nonemergency                A-02-09-01024            2/13/2012
 Medical Transportation Services Claims Submitted
 by Providers in New York State

 Review of Medicaid Payments for Nonemergency                A-02-08-01017           11/30/2011
 Medical Transportation Services Claims Submitted
 by Providers in New York City

 Review of Costs Claimed by the State of Nebraska            A-07-10-04172            7/22/2011
 for Non-Emergency Medical Transportation
 Services Provided by Shared Mobility Coach

 Review of Nonemergency Medical Transportation               A-06-09-00090           10/22/2010
 Costs in the State of Texas (Transportation
 Provided by the League of United Latin American
 Citizens – Project Amistad)

 Review of Nonemergency Medical Transportation               A-06-08-00096            6/15/2010
 Costs in the State of Texas (Transportation
 Provided by Capital Area Rural Transit System)




Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)     7
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

We limited our review to Medicaid fee-for-service claims paid to medical transportation
providers in Los Angeles County7 for NEMT services from July 1, 2010, through June 30, 2011,
that required prior authorization. We excluded claims (1) related to an investigation at the time
of our audit and (2) for transfers of beneficiaries from acute-care hospitals to skilled nursing
facilities or intermediate-care facilities (which we will review in a separate audit).

After taking into account the excluded claims, there were 1,883,050 NEMT fee-for-service
claims paid to Los Angeles County providers. For our review, we grouped the claims into
beneficiary-services. A beneficiary-service represented all paid claims for NEMT services
provided to one beneficiary on the same beginning and ending dates of service. We removed
any beneficiary-services for which the total amount paid was zero or negative. From a total of
$49,012,884 ($29,320,210 Federal share) that the State agency claimed for 835,648 beneficiary-
services, we reviewed a random sample of 100 beneficiary-services.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we limited our review of internal controls to those that were significant to the
objectives of our audit.

We conducted fieldwork at the State agency’s offices in Sacramento and San Diego, California;
the fiscal agent’s office in West Sacramento, California; and 41 transportation providers’
locations in Los Angeles County, California. We also contacted seven medical care providers in
Los Angeles and Riverside Counties.

METHODOLOGY

To accomplish our objectives, we:

    •   reviewed applicable Federal and State laws, regulations, and guidance;

    •   obtained an overview of NEMT services from CMS officials;

    •   interviewed State agency officials regarding eligibility requirements and prior
        authorization for NEMT services, service delivery, and reporting of NEMT expenditures
        on the CMS-64;

    •   interviewed the State agency’s fiscal agent to obtain information on the claim
        adjudication process;



7
 We used the transportation providers’ payment address ZIP Codes to identify providers located in Los Angeles
County.



Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)                  8
    •   obtained data files from the State agency’s fiscal agent for all fee-for-service claims paid
        for NEMT services from July 1, 2010, through June 30, 2011;

    •   reconciled the claim data with the NEMT expenditures reported on the CMS-64;

    •   created a sampling frame that contained 835,648 beneficiary-services, totaling
        $49,012,884 ($29,320,210 Federal share);

    •   selected from the sampling frame a simple random sample of 100 beneficiary-services for
        which we:

        o reviewed TARs maintained by the State agency to determine which NEMT services
          the transportation providers were authorized to provide,

        o interviewed transportation providers (if available) and reviewed the providers’
          documentation (e.g., trip logs and physician orders) to ensure that NEMT services
          were provided as authorized by the State agency and that the services were properly
          documented,

        o compared the dates of the NEMT services with the dates of other medical services
          billed to Medicare and Medicaid to verify that the beneficiaries obtained medical care
          on the dates that NEMT services were provided (and in some cases) contacted
          medical providers for confirmation,

        o determined whether the NEMT services complied with Federal and State
          requirements and the allowability of the State agency’s payments, and

        o estimated the unallowable Federal Medicaid reimbursement;

    •   determined whether the transportation providers associated with the 100 sampled
        beneficiary-services complied with State regulations by reviewing:

        o driver qualification records (i.e., medical examinations, driver’s license records, and
          first aid certifications) and

        o vehicle records (e.g., vehicle schedules and insurance policies); and

    •   discussed our findings with State agency officials.

See Appendix C for the details of our statistical sampling methodology and Appendix D for our
sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions



Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)         9
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)   10
               APPENDIX C: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of all Medicaid fee-for-service claims paid to Los Angeles County
providers for NEMT services from July 1, 2010, through June 30, 2011, that required prior
authorization.

SAMPLING FRAME

For our audit period, there were 1,919,440 NEMT claims paid to Los Angeles County providers
totaling $51,336,414 ($30,706,115 Federal share). From these claims, we removed:

    •   34,703 claims for transfers of beneficiaries from acute-care hospitals to skilled nursing
        facilities or intermediate-care facilities (which will we review in a separate audit) and

    •   1,687 claims related to an investigation at the time of our audit.

From the remaining 1,883,050 NEMT claims, we created a sampling frame of beneficiary-
services by grouping the claims based on the Medicaid beneficiary identification number and
beginning and ending dates of service. We removed from the sampling frame 116 beneficiary-
services for which the total amount paid was zero or negative, which resulted in a sampling
frame of 835,648 beneficiary-services (representing 1,882,733 NEMT claims), totaling
$49,012,884 ($29,320,210 Federal share).

SAMPLE UNIT

The sample unit was a beneficiary-service, which included paid claims for all NEMT services
provided to a beneficiary on the same beginning and ending dates of service.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 beneficiary-services.

SOURCE OF RANDOM NUMBERS

We used the OIG, Office of Audit Services (OAS), statistical software to generate the random
numbers.




Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)      11
METHOD OF SELECTING SAMPLE UNITS

We consecutively numbered the sample units in the frame from 1 to 835,648. After generating
100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the unallowable Federal Medicaid
reimbursement paid by applying the applicable FMAP to the payments for NEMT services that
we determined did not comply with Federal and State requirements.




Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)   12
                    APPENDIX D: SAMPLE RESULTS AND ESTIMATES

                                       Table 1: Sample Results

                                                                                            Value of
                                                  Value of            Number of            Improper
Frame        Value of Frame        Sample          Sample             Improper             Payments
  Size       (Federal Share)        Size       (Federal Share)        Payments          (Federal Share)
835,648        $29,320,210           100           $3,164                7                   $123


                  Table 2: Estimates of Unallowable Federal Reimbursement
             for Nonemergency Medical Transportation Services (Federal Shares)
                    (Limits Calculated for a 90-Percent Confidence Interval)

                              Point estimate                    $1,025,006
                               Lower limit                         265,680
                               Upper limit                       1,784,331




Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)            13
  APPENDIX E: FEDERAL AND STATE REQUIREMENTS FOR NONEMERGENCY
         MEDICAL TRANSPORTATION SERVICES AND PROVIDERS

FEDERAL REQUIREMENTS

Transportation Definition

Federal regulations state that transportation “includes expenses for transportation and other
related travel expenses determined to be necessary by the agency to secure medical examinations
and treatment for a [beneficiary]” (42 CFR § 440.170(a)(1)).

State Plan Requirements

The Act, § 1902(a)(27), requires a State plan for medical assistance to:

        provide for agreements with every person or institution providing services under
        the State plan under which such person or institution agrees (A) to keep such
        records as are necessary fully to disclose the extent of the services provided to
        individuals receiving assistance under the State plan, and (B) to furnish the State
        agency or the Secretary with such information, regarding any payments claimed
        by such person or institution for providing services under the State plan, as the
        State agency or the Secretary may from time to time request.

Federal regulations state: “A State plan must— (a) Specify that the Medicaid agency will ensure
necessary transportation for [beneficiaries] to and from providers; and (b) Describe the methods
that the agency will use to meet this requirement” (42 CFR § 431.53).

Documentation Requirements

CMS’s State Medicaid Manual (the Manual) directs States to “[r]eport only expenditures for
which all supporting documentation, in readily reviewable form, has been compiled and which is
immediately available when the claim is filed” (the Manual, chapter 2, § 2500.2.A.). The
Manual specifies that “supporting documentation includes as a minimum the following: date of
service, name of [beneficiary], Medicaid identification number, name of provider agency and
person providing the service, nature, extent, or units of service, and the place of service” (the
Manual, chapter 2, § 2500.2.A.).

STATE REQUIREMENTS

Definition of Nonemergency Medical Transportation Services

State regulations define NEMT as “transportation by ambulance, litter van and wheelchair van of
the sick, injured, invalid, convalescent, infirm or otherwise incapacitated persons whose medical
conditions require medical transportation services but do not require emergency services or
equipment during transport” (22 CCR § 51151.7).




Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)   14
According to State regulations: “Ambulance, litter van and wheelchair van medical
transportation services are covered when the beneficiary’s medical and physical condition is such
that transport by ordinary means of public or private conveyance is medically contraindicated,
and transportation is required for the purpose of obtaining needed medical care” (22 CCR
§ 51323(a)).

Prior Authorization Requirements

According to State regulations (22 CCR § 51323(b)(2)):

        All nonemergency medical transportation, necessary to obtain program covered
        services, requires a physician’s, dentist’s or podiatrist’s prescription and prior
        authorization except … (C) Nonemergency transportation services are exempt
        from prior authorization when provided to a patient being transferred from an
        acute care hospital immediately following a stay as an inpatient at the acute level
        of care to a skilled nursing facility or an intermediate care facility licensed
        pursuant to Section 1250 of the Health and Safety Code.

State regulations define prior authorization as “authorization granted by a designated [Medicaid
program] consultant or by a Primary Care Case Management (PCCM) plan and is obtained
through submission and approval of a TAR” (22 CCR § 51003(a)). In addition, according to
State regulations: “Any provider who prescribes a service shall not sign a [TAR] until the
patient has been examined and all of the following information appears on the TAR:
(a) Beneficiary identification; (b) Provider identification; (c) Diagnosis and other pertinent
medical information; and (d) Service or item requested” (22 CCR § 51456).

Documentation Requirements

State regulations (22 CCR §§ 51476(a) and (e)) require the following:

    (a) Each provider shall keep, maintain, and have readily retrievable, such records as
        are necessary to fully disclose the type and extent of services provided to a
        [Medicaid program] beneficiary. Required records shall be made at or near the
        time at which the service is rendered. Such records shall include, but not be
        limited to the following:

        (1) Billings.
        (2) Treatment authorization requests.
        (3) All medical records, service reports, and orders prescribing treatment plans.
        (4) Records of medications, drugs, assistive devices, or appliances prescribed,
        ordered for, or furnished to beneficiaries ….

    (e) Records of medical transportation providers shall include, in addition to (a):

        (1) Time and date of service for each beneficiary.
        (2) Odometer readings at each pick-up and delivery location.



Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)     15
        (3) The provider assigned vehicle identification code and name of the operator
        providing the service.
        (4) Names of beneficiaries transported in total or partial group runs.

Driver Qualification Requirements

State regulations (CCR §§ 51231.1(a)(1) and 51231.2(a)(1)) specify that litter vans or wheelchair
vans must be operated by a certified driver and an attendant who:

        (A) Possess a current California driver’s license or a current California
        Ambulance Driver Certificate issued by the State Department of Motor Vehicles.
        (B) Be at least 18 years of age.
        (C) Possess at least a current American Red Cross Standard First Aid and
        Personal Safety Certificate or equivalent.
        (D) Have passed a physical examination within the past two years and possess a
        current Department of Motor Vehicle form DL-51, Medical Examination Report,
        which is specifically incorporated herein by reference.




Nonemergency Medical Transportation Services in Los Angeles County, California (A-09-12-02083)   16
                          APPENDIX F: STATE AGENCY COl.VIl.II.IENTS


                                       State of California-Health and Human Sesvices Agency
                                       Department of Health Care Services

                 TOBYDOUGlAS                                                                                    ECil.INDG. BRCIWN JR.
                   IJJRfCTfR                                                                                         G<MRNOR




                     Ms. Lori A. Ahlstrand
                     Regional Inspector Genera l for Audit Services
                     Office of Audit Services, Region IX
                     90-7"' Street, Suite :Hl50
                     San Francisco, CA 94103

                     Dear Ms. Ahlstrand:

                     The CaJifomia Department of 1-teatth C a re Services (DHCS) has prepared its response
                     to tile U.S. Department of Health and Human Services, Office of Inspector General
                     (OI G) draft report entitled Galifornia Claimed Medicaid Reimbursement for Some
                     Nonemergency Medical Transpottation Services in Los Angeles County That Did Not
                     Comply with Federal and State Regulations.

                     DHCS appreciates the wort< peffoll!led by OIG and tile opportunity to respond to tile
                     draft report. Please contact Ms. Sarah Hollister, Audtt Coordinator, at (916) 650-0298 if
                     you have any questions.


                     Sincerely,

                     [Toby Douglas]

                     Toby Douglas 

                     Director 




                     Enclosure




                               1501 Capitol Awnoe, Suite 71.6001, MS 0000 • P.O. 997413· Saaamen1o. CA 95899-7413
                                                       (916) -   7<00 • (9161-   7404 FAX
                                                        Internetaddress: VMW.chcs.ca.gcw




Nonemergency Medical Transportalioo Services in Los Angeles Cou>1fy, Ca/ifonoa (A-09-12-02083)                                          17
                    Ms. Lori A. Ahlstrand
                    Page 2



                    cc: 	   Karen Johnson, Chief Deputy Director
                            Department of Health care Services
                            1501 Capitol Avenue, MS 0000
                            P.O. Box 997413
                            Sacramento , CA 95899-7413

                            Mari Cantwell , Chief Deputy Director
                            Department of Health care Services
                            1501 Capitol Avenue, MS 0000
                            P.O. Box 997413
                            Sacramento, CA 95899-7413

                            Bruce Lim, Deputy Director
                            Audtts & Investigations Division
                            Department of Health care Services
                            1500 Capitol Avenue, MS 2000
                            P.O. Box 997413
                            Sacramento, CA 95899-7413

                            Bob Sands, Assistant Deputy Director
                            Audtts & Investigatio ns Division
                            Department of Health care Services
                            1500 Capitol Avenue, MS 2000
                            P.O. Box 997413
                            Sacramento, CA 95899-7413

                            Marl< Mimnaugh, Chief
                            Medical Review Branch
                            Department of Health care Services
                            1500 Capitol Avenue, MS 2000
                            P.O. Box 997413
                            Sacramento, CA 95899-7413




Nonemergency Medical Transportalioo Services in Los Angeles CoW1fy, Ca/ifonoa (A-09-12-02083)   18
                                    Department of Health Care Services Response to the 

                                     Office of In spector Genera l's Draft Report Entitled: 

                       California Claimed Medicaid Reimbursement for Some Nonemer gency Medical 

                  Tra nsportation Services in Los Angeles Cou nty Th at Did Not Comply With Federal and 

                                                      Stat e Requirements 



                 Finding #1: The State Agency paid f or some nonemergen cy medical transportation
                             services that did not comply with Federal an d State Requirements.

                 The State agency pays for NEMT services if transportation is required for benefi ciaries to
                 obtain needed medical care (22 CCR § 51323(a)):

                    • 	 For two beneficiary-services. the State Agency paid for services provided on dates
                        Wilen the beneficiaries did not obtain needed medical care. Although the transportation
                        providers documentation showed that the beneficiaries were transported to authorized
                        medical care providers, the medical care provider state that they did not provide medical
                        care to the beneficiaries on the dates the transportation was provided. The OIG
                        disalloWed the entire payment amount for these services.
                    • 	 For two beneficiary-services, the State agency paid for NEMT services that the
                        transportation provider improperty billed as "night call" services. Night call services are
                        provided from 7:00pm to 7:0oam and are reimbursed an additional amount above the
                        standard service rate . The transportation providers documen tation showed that the
                        services were provided outside the night call period. The OIG allowed the payments for
                        transportatio n services but disallowed the additio nal night call payments.
                    • 	 For one beneficiary-service, the State age ncy paid for a dry run improperly billed as a
                        round-trip service between the benefi ciary's residence and a medical facility. The OIG
                        allowed the payment for a one-way service because the transportation provide(s
                        documentation shoWed that the provider attempted to transport the patient.

                 The deficiencies occurred because the transportation providers did not alWays follow Federal
                 and State requirements for billing NEMT services. The OIG estimated that the State agency
                 claimed Federal reimbursement of at least $265,680 for NEMT services in Los Angeles County
                 that did not comply with Federal and State requirements.

                 Recommen dation 1: The State should refund $265,680 to the Federal Government

                 Response: DHCS agrees with the recommendation.

                 The amount identified is the extrapolated value of adjustments identified in the OIG's audn
                 sample of NEMT claims in Los Angeles County. No additional corrective action is necessary.


                 Recommen dation 2: The State should educate transportation providers to ensure they follow
                 Federal and state requirements for billing NEMT services.


                 Response: DHCS agrees with the recommendatio n.




Nonemergency Medical Transportalioo Services in Los Angeles CoW1fy, Ca/ifonoa (A-09-12-02083)                         19
                 13-31 NEMT LA
                 30 Day Draft


                 The Medical Review Branch will continue outreach activities with the Provider community to
                 include being available to present issues of billing compliance at Industry forums and
                 association meetings.

                 Implementation date: Ongoing



                 Finding #2: Transportation providers did not always maintain documentation for
                             drivers and vehicles associated w ith nonemer gency medical tran sportation
                               services.

                 Transportation providers did not always maintain documentation for drivers and vehicles
                 associated with NEMT services. Specifically, for twenty-two (22) beneficiary-services, the
                 providers did not maintain driver qual ~i cation and vehicle records that complied with State
                 requirements.

                 Recommen dation: The State agency should educate transportation providers to ensure that
                 they follow State requirements for maintaining documentation for drivers and vehicles
                 associated with NEMT services.

                 Response: DHCS agrees with the recommendation .

                 The Medical Review Branch will continue outreach activities with the Provider community to
                 include being available to present issues of billing compliance at Industry forums and
                 association meetings.

                 Implementation date: Ongoing




                                                              Page2




Nonemergency Medical Transportalioo Services in Los Angeles CoW1fy, Ca/ifonoa (A-09-12-02083)                    20
